U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 14, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Robert Olan and Theodore Huber v. United States, No. 20-306
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 4,
2020. The government’s response is now due, after one extension, on November 9, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including November 24, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioners do not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0306
OLAN, ROBERT, ET AL.
USA

MICHAEL R. DREEBEN
O'MELVENY & MYERS LLP
1625 EYE STREET, NW
WASHINGTON, DC 20006
202-383-5400
MDREEBEN@OMM.COM
CARY A. GLYNN
WILMER CUTLER PICKERING
7 WORLD TRADE CENTER
250 GREENWICH STREET
NEW YORK, NY 10007
212-230-8800
PETER.NEIMAN@WILMERHALE.COM
MICHAEL H. MCGINLEY
DECHERT LLP
1900 K STREET, NW
WASHINGTON, DC 20006
202-261-3300
MICHAEL.MCGINLEY@DECHERT.COM
DANIEL M. SULLIVAN
HOLWELL SHUSTER & GOLDBERG LLP
425 LEXINGTON AVENUE
NEW YORK , NY 10017
646-837-5151
DSULLIVAN@HSGLLP.COM

DONALD B. VERRILLI JR.
MUNGER, TOLLES & OLSON LLP
1155 F STREEET NW
7TH FLOOR
WASHINGTON, DC 20004
202-220-1101
DONALD.VERRILLI@MTO.COM

